<html>
<title> - H. RES. 989, DISMISSING THE ELECTION CONTEST RELATING TO THE OFFICE OF REPRESENTATIVE FROM THE THIRTEENTH CONGRESSIONAL DISTRICT OF FLORIDA; AND MARKUP OF H.R. 5159, THE CAPITOL VISITOR CENTER ACT OF 2008</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
H. RES. 989, DISMISSING THE ELECTION CONTEST RELATING TO THE OFFICE OF 
 REPRESENTATIVE FROM THE THIRTEENTH CONGRESSIONAL DISTRICT OF FLORIDA; 
    AND MARKUP OF H.R. 5159, THE CAPITOL VISITOR CENTER ACT OF 2008

=======================================================================

                                MEETING

                               before the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

               HELD IN WASHINGTON, DC, FEBRUARY 12, 2008

                               __________

      Printed for the use of the Committee on House Administration


                       Available on the Internet:
   http://www.gpoaccess.gov/congress/house/administration/index.html


                     U.S. GOVERNMENT PRINTING OFFICE
42-797 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                   COMMITTEE ON HOUSE ADMINISTRATION

                ROBERT A. BRADY, Pennsylvania, Chairman
ZOE LOFGREN, California              VERNON J. EHLERS, Michigan
  Vice Chairwoman                      Ranking Minority Member
MICHAEL E. CAPUANO, Massachusetts    DANIEL E. LUNGREN, California
CHARLES A. GONZALEZ, Texas           KEVIN McCARTHY, California
SUSAN A. DAVIS, California
ARTUR DAVIS, Alabama
                 S. Elizabeth Birnbaum, Staff Director
                 Will Plaster, Minority Staff Director


                                MEETING

                              ----------                              


                       TUESDAY, FEBRUARY 12, 2008

                          House of Representatives,
                         Committee on House Administration,
                                                    Washington, DC.
    The committee met, pursuant to call, at 5:17 p.m., in room 
1310, Longworth House Office Building, Hon. Robert A. Brady 
(chairman of the committee) presiding.
    Present: Representatives Brady, Lofgren, Capuano, Gonzalez, 
Ehlers, Lungren, and McCarthy.
    Staff Present: Liz Birnbaum, Staff Director; Thomas Hicks, 
Senior Election Counsel; Janelle Hu, Election Counsel; Matt 
Pinkus, Professional Staff/Parliamentarian; Ellen McCarthy, 
Professional Staff; Kyle Anderson, Press Director; Kristin 
McCowan, Chief Legislative Clerk; Daniel Favarulo, Legislative 
Assistant, Elections; William Plaster, Minority Staff Director; 
Fred Hay, Minority General Counsel; and Bryan T. Dorsey, 
Minority Professional Staff.
    The Chairman. I would like to call this meeting of the 
House Administration Committee to order. As we gather here 
today, I want to take a moment to point out the latest editions 
to our committee hearing room, several portraits, acknowledge 
several previous chairs of the committee.
    If we start on my righthand side in chronological order, at 
the further end of the room, you will see a portrait of Samuel 
Nathaniel Friedel of Maryland. He served in the House from 1953 
to 1971. Congressman Friedel served as Chairman of the 
committee in the 90th and 91st Congress.
    Here, closer to the dais, is the portrait of Congressman 
Charlie Rose of North Carolina. Congressman Rose served in the 
House from 1973 to 1997 and served as chairman of the committee 
in the 102nd and 103rd Congress.
    On my left, is the portrait of Congressman Bill Thomas of 
California. He served in the House from 1979 to 2007. Chairman 
Thomas served as chairman of this committee 104th, 105th and 
106th Congress.
    In front of me, directly in front of me and behind the 
audience, we find a picture of Chairwoman Juanita Millender-
McDonald of California. She served in the House between 1996 
and 2007. She also served briefly at the opening of the 110th 
Congress as the first African-American chairwoman of the 
committee before her untimely passing. Her family has loaned 
the committee this official portrait of her for the remainder 
of the Congress.
    Today we will have two items of business today. The first 
item of business, will be to receive a report by the chairman 
of the task force on the election contest in the 13th District 
of Florida, Representative Gonzalez.
    I would also like to thank personally Representatives 
Gonzalez and Lofgren for their hard work on overseeing matters 
related to the Florida 13 contest and investigation of the 
18,000 overvote of Sarasota County, Florida. I would also like 
to thank Representative McCarthy and both the majority and 
minority staffs for their efforts with this investigation. 
Lastly, I would like to thank the Government Accountability 
Office, the GAO, for providing technical assistance to the task 
force and the House recording studio for assisting with the 
video recording of the GAO testing conducted in Florida.
    Chairman Gonzalez, I would like to reserve my time to have 
you make some opening remarks regarding the work of the task 
force.
    Mr. Gonzalez. Thank you very much, Mr. Chairman. And I 
appreciate you allowing me this opportunity to go forward. And 
I am going to be very, very brief because, obviously, since the 
task force met and voted to make this particular recommendation 
that is before the full committee today, some days have passed, 
and obviously there are many people that are making comments 
regarding the work of the General Accountability Office. And 
that is to be expected.
    First and foremost, I would hope that people will keep in 
mind that the task force was really charged with a very 
specific obligation, and that was: to investigate and keep a 
very narrow focus on the central allegation of the contestant's 
notice of contest that the electronic voting machines 
malfunctioned. That is all we did. GAO was not charged with the 
responsibility of establishing as to what may have caused the 
18,000 vote undervote in Sarasota, which was an anomaly given 
the fact that there wasn't anything of that nature or that 
degree in any of the other counties comprising the 
Congressional District Florida 13.
    Further, there was no--again, to the degree or to the 
extent of the undervote was not reflected in the absentee 
ballots filed in Sarasota, which obviously did not utilize the 
ES&S electronic voting devices. So there was a legitimate 
controversy. But we knew from the beginning that it truly was a 
question of the alleged malfunctioning of electronic voting 
devices. And that is what GAO was charged with. And that is the 
assistance that they gave us.
    It would have been a wonderful, wonderful achievement if we 
could have accounted and given some basis or some reason 
through the scientific process as to why there was that 
undervote. I cannot give you that answer. We can speculate 
that, again, maybe the voters were totally turned off. But I 
don't think--and common sense mitigates against any kind of 
reasoning--that 18,000 individuals decided not to vote when in 
fact that wasn't reflected in the adjoining counties nor in the 
absentee ballots.
    So we would look then at ballot design, but that is an open 
question. And the jury is still out on that, and there will be 
work done on that. So I am hoping that we will be able to 
proceed unencumbered by any further observations as to that we 
weren't able to give the specific answers to the undervote. 
That truly was not our charge. It was not our obligation. And 
it wasn't the goal of the General Accountability Office.
    And with that, Mr. Chairman, again, thank you, and of 
course, I am here if you have any questions or other members of 
the full committee.
    And I yield back.
    The Chairman. Thank you Mr. Gonzalez.
    Are there any other members who wish to be recognized for 
statements?
    Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. And thank you for 
calling this meeting. One of the items on the agenda today is 
consideration of the final report from the election task force 
in the contest in Florida's 13th District. I did not formally 
sit on the task force, but I attended several of the meetings. 
And frankly, I was extremely impressed with the manner in which 
the process was handled both inside this room for public 
meetings and in private briefings between the GAO and the task 
force.
    And much of the credit for that belongs to the two 
gentlemen sitting here. First, Mr. Gonzalez as chair handled it 
very, very professionally. And I was very pleased to see that. 
And also, Mr. McCarthy on our side of the aisle was extremely 
responsible in his approach and his comments. And it is a good 
example of how the process should work in situations like this.
    During my years in Congress, I have seen several of these 
cases become extremely contentious, and it was not good. The 
level of professionalism, integrity and bipartisanship set by 
Congressman Gonzalez and as countered by on the Republican side 
Representative McCarthy serves as a model for all similar 
proceedings in the future. And since all of these are cataloged 
and maintained by CRS, it is very important that we keep the 
history of this accurate so that later others can follow the 
same model.
    Each of the committee members have participated in a civil 
measured tone from the beginning of the process to the final 
report we have with us today. And I thank the task force for 
their good work.
    Also on today's agenda is the markup of legislation H.R. 
5159, the Capitol Visitor Center Act of 2008. This is the 
largest extension of the Capitol in its 212-year history and 
approximately \3/4\ of the size of the Capitol itself. With a 
project of this size, it is essential that we maintain a 
vigorous and effective oversight of its operations. This bill 
will ensure effective management and administration of the 
Capitol Visitor Center through the creation of an office within 
the Office of the Architect of the Capitol with the oversight 
by this committee and Senate Committee on Rules and 
Administration.
    I look forward to continuing our oversight activities with 
you, Mr. Chairman, over the CVC as we near November 2008, 
opening date and beyond. I might add that whenever the 
Architect of the Capitol has given me a date for opening the 
CVC, I have always added a year. I think we are at the point 
now where it may be that you can only add 3 to 6 months and we 
will be on target.
    With that, I yield back the balance of my time.
    The Chairman. Thank you. Anybody else have any--Mr. 
McCarthy.
    Mr. McCarthy. Mr. Chairman, I just want to, one, publicly 
thank Mr. Gonzalez because the way he chaired the task force 
and the way he handled himself throughout. Every issue that 
came before it, we took the politics out of it. It was 
unanimous decisions from the start to the finish as we went 
through. And I think one of the jobs we were asked to do was to 
work for the trust of the American people to find out if their 
votes were honest and accurate. In the end we found through 
more study than this committee in the history has ever done, 
that yes, every vote that was taken that day of the election, 
during that election, was counted and the outcome was correct. 
And the way that we went about finding that answer I think was 
a pattern that history will show is the way to go about it. And 
I did want to thank Mr. Gonzalez for the work he has done. And 
I yield back.
    Mr. Lungren. Mr. Chairman.
    The Chairman. Mr. Lungren.
    Mr. Lungren. Mr. Chairman, although I was not a member of 
the task force, I was privileged to sit in on most of the 
meetings and observe the actions, but also the chairman of the 
task force was kind enough to allow me to ask questions and 
actually participate. And I appreciate that. I would also like 
to underscore the professional way in which the task force went 
about their business. I have been here at other times when we 
had a certain amount of bitterness that resulted from the way a 
contest was taking place. This goes back some 20 years. This 
was exactly the opposite of that. There was cooperation. There 
was bipartisanship. There was an effort by the chairman to 
ensure there was a unanimous vote, I believe, on every single 
question that came forward. That is the way to do this in an 
otherwise very contentious situation. And I want to make sure 
that the record is clear that not only was this done right this 
time, but it provides an example of how we should do this in 
thefuture if this comes up.
    I would also like to refer to page 3 of the report, 
paragraph 3, where it says: No further action was taken by the 
courts or the parties over the following 5 months, and the 
contestant withdrew a challenge in the Florida courts on 
November 26, 2007.
    I just want to make sure there is no indication by that 
statement that somehow the courts acted inappropriately; they 
didn't go forward or anything. It appeared to me that parties, 
both parties didn't move forward at that point in time or take 
action. So I didn't find anything that suggested that the 
courts acted inappropriately or slowed things down. I just 
wanted to make sure that at least my interpretation of that 
statement is part of the record. And once again, I thank the 
gentleman from Texas. He proved himself to be a judge in the 
best sense of the word.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Capuano.
    Mr. Capuano. Mr. Chairman, I, too, want to echo my thanks 
to the chairman and the members of the commission. I know it is 
a difficult task, one that I wanted nothing to do with. And I 
am glad that they did it and came up with something that we can 
all embrace. At the same time, I want to underscore something 
in my mind very clear, nothing in this investigation provided 
any real reliability on behalf of the American people that the 
next election won't be screwed up because we don't have any 
paper ballots to follow.
    I don't think anything in this review indicates anything 
other than we still need to change our laws to require paper 
ballots so that the next time there is a recount, which there 
will be at every level of government, that the recount can be 
relied upon as being accurate and that there will be no 
questions left at the end. In this particular case, there were 
no questions about the machine. But there are no answers about 
the 18,000 votes. So be it, that is the way it is in this 
particular case. But we are not doing our job for America if we 
let this situation continue over the long run. I understand 
fully well it would be inappropriate and impossible to do it 
for this election cycle. Nonetheless, I hope this committee and 
members of this House continue working towards trying to find a 
way to get us to paper ballots so that all of America and each 
American can rely on the fact that their votes will be counted 
as we intend.
    The Chairman. Thank you.
    Any other members? I now call up an original resolution 
relating to the election contest in the 13th District of 
Florida, the text of which is before the members.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2797.001
    
    The Chairman. And without objection, the first reading of 
the resolution will be dispensed with, and the resolution shall 
be considered as read and open for amendment at any time.
    Do any members wish to speak further before we proceed to 
consideration of the motion of the report?
    The Chair now recognizes the gentleman from Texas for the 
purpose of making a motion.
    Mr. Gonzalez. Thank you, Mr. Chairman. And I would move 
that the committee order reported favorably to the House an 
original resolution, the text of which is before us, to dismiss 
the election contest in the 13th District of Florida.
    The Chairman. Thank you.
    The question is on the motion by the gentleman from Texas.
    Yes, Mr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman. The Republican staff, 
as I mentioned to you privately, has just been made aware of 
the majority's intention to include a very long list of 
articles and other appendices in the report to be filed with 
the House. Our staffs have worked very cooperatively through 
this whole election contest, and we generally agree with the 
draft report language. However, we have not had an opportunity 
to read the content of these articles and other appendices to 
be included. And we reserve the right to include minority views 
in the final report to the House. As I mentioned to you 
privately earlier, we would be happy to work together with the 
majority and try to develop the unified document, which I think 
would be ideal, but in case we cannot agree to that, we reserve 
the right to include minority views.
    The Chairman. Thank you.
    The question is on the motion by the gentleman from Texas. 
All in favor say aye. Any opposed?
    The ayes have it, unanimous. And without objection, the 
motion to reconsider is laid upon the table. The resolution is 
reported to the House. The members will have 2 additional days 
provided by the House Rules to file minority views.
    Now we will take up H.R. 5159, the Capitol Visitor Center 
Act of 2008. The next order of business will be consideration 
of H.R. 5159, the Capitol Visitor Center Act of 2008.
    I recognize myself for an opening statement. When the 
Capitol Visitor Center opens at the end of this year, it will 
provide even more opportunity for visitors to the Capitol to 
learn about the Capitol, the Constitution and the work of 
Congress. With the opening of the CVC, we expect more than 3 
million guests each year.
    H.R. 5159 is an administrative bill providing necessary 
authorization for the CEO of Visitor Services to operate the 
CVC. While the CEO will have a separate budget and operating 
authority, she must coordinate with the Police Board on matters 
affecting Capitol security. The bill provides for gift shops, 
restaurants and catering, and establishes revolving funds to 
support this operation.
    The bill will also move the Capitol Guide Service into the 
CVC once we have a certificate of occupancy for the building. 
While the Guide Service will run from the CVC, the Office of 
Special Services, which provides assistance to disabled 
Members, staff and visitors, will become a separate entity.
    The bill provides the new Office of Congressional 
Accessibility Service with its own budget and 
operatingauthority to be overseen by the Police Board. In both the 
Guide Service and the Office of Special Services, we are ensuring that 
everyone retains their existing job, seniority, rate of pay and 
benefits. No existing employees of the Guide Service will be let go or 
subject to a probationary period as a result of these changes. With the 
enactment of this bill, we will be able to look forward to the opening 
of the CVC as a fully functioning operation. I would now like to 
recognize the ranking member, Mr. Ehlers, cosponsor of this bill, for 
an opening statement.
    Mr. Ehlers. Thank you, Mr. Chairman. I have little to add. 
I have no difficulty relating to the amendments. In fact, I 
support them, and I support the bill as well. My only regret, 
Mr. Chairman, is that we didn't pass something like that a 
couple years ago. It wasn't for a lack of trying. But there 
were certain obstacles, not on our side of the rotunda. But I 
am glad we have managed to overcome those and we have a good--I 
think we are setting up here a very good system for governing 
the CVC.
    With that, I will yield back.
    The Chairman. Thank you.
    Any other statements? Anybody else have any comments?
    The Chair now calls up before the committee H.R. 5159. 
Without objection, the first reading of the bill will be 
dispensed with. And without objection, the bill will be 
considered as read and open to amendments at any point.
    [The information follows:]

    [GRAPHIC] [TIFF OMITTED] T2797.002
    
    [GRAPHIC] [TIFF OMITTED] T2797.003
    
    [GRAPHIC] [TIFF OMITTED] T2797.004
    
    [GRAPHIC] [TIFF OMITTED] T2797.005
    
    [GRAPHIC] [TIFF OMITTED] T2797.006
    
    [GRAPHIC] [TIFF OMITTED] T2797.007
    
    [GRAPHIC] [TIFF OMITTED] T2797.008
    
    [GRAPHIC] [TIFF OMITTED] T2797.009
    
    [GRAPHIC] [TIFF OMITTED] T2797.010
    
    [GRAPHIC] [TIFF OMITTED] T2797.011
    
    [GRAPHIC] [TIFF OMITTED] T2797.012
    
    [GRAPHIC] [TIFF OMITTED] T2797.013
    
    [GRAPHIC] [TIFF OMITTED] T2797.014
    
    [GRAPHIC] [TIFF OMITTED] T2797.015
    
    [GRAPHIC] [TIFF OMITTED] T2797.016
    
    [GRAPHIC] [TIFF OMITTED] T2797.017
    
    [GRAPHIC] [TIFF OMITTED] T2797.018
    
    [GRAPHIC] [TIFF OMITTED] T2797.019
    
    [GRAPHIC] [TIFF OMITTED] T2797.020
    
    [GRAPHIC] [TIFF OMITTED] T2797.021
    
    [GRAPHIC] [TIFF OMITTED] T2797.022
    
    [GRAPHIC] [TIFF OMITTED] T2797.023
    
    [GRAPHIC] [TIFF OMITTED] T2797.024
    
    [GRAPHIC] [TIFF OMITTED] T2797.025
    
    [GRAPHIC] [TIFF OMITTED] T2797.026
    
    [GRAPHIC] [TIFF OMITTED] T2797.027
    
    [GRAPHIC] [TIFF OMITTED] T2797.028
    
    [GRAPHIC] [TIFF OMITTED] T2797.029
    
    [GRAPHIC] [TIFF OMITTED] T2797.030
    
    [GRAPHIC] [TIFF OMITTED] T2797.031
    
    [GRAPHIC] [TIFF OMITTED] T2797.032
    
    [GRAPHIC] [TIFF OMITTED] T2797.033
    
    [GRAPHIC] [TIFF OMITTED] T2797.034
    
    [GRAPHIC] [TIFF OMITTED] T2797.035
    
    [GRAPHIC] [TIFF OMITTED] T2797.036
    
    [GRAPHIC] [TIFF OMITTED] T2797.037
    
    [GRAPHIC] [TIFF OMITTED] T2797.038
    
    [GRAPHIC] [TIFF OMITTED] T2797.039
    
    [GRAPHIC] [TIFF OMITTED] T2797.040
    
    The Chairman. I would now like to offer technical 
amendments en bloc which are before the members.
    Without objection, the amendments en bloc are considered as 
having been read.
    The first two of these amendments provide reassurance that 
the bill does not affect other provisions of the existing law. 
The final three items correct drafting errors in the bill. Is 
there any debate on the amendments? Without question, the 
amendments are agreed to. Are there further amendments?
    [Information follows:]
    [GRAPHIC] [TIFF OMITTED] T2797.041
    
    The Chairman. If not, the chair recognizes the vice chair 
for the purpose of offering a motion. I also would like to 
recognize Mr. Capuano to be next in line for offering a motion 
which is being given to you. And we are in dangerous territory 
here.
    Mr. Capuano. Mr. Chairman, I move the committee report the 
bill, H.R. 5159, as amended, favorably to the House.
    The Chairman. All those in favor say aye. Any opposed?
    The ayes have it unanimously. The motion is agreed to 
without objection. The motion to reconsider is laid upon the 
table. And the bill as amended will be reported to the House.
    Are there any other views? Any other comments?
    Yes, Mr. Ehlers.
    Mr. Ehlers. I just wanted to commend our substitute vice 
chair for the direct manner in which he handled that motion.
    The Chairman. He is not done yet I don't think.
    Mr. Ehlers. I yield back.
    The Chairman. Mr. Capuano.
    Mr. Capuano. Mr. Chairman, for the record, I know the 
answer. But just for the record, I want to make it clear that 
there is nothing in this bill and even as amended that would in 
any way prohibit or prevent staff tours from taking place in 
and around the CVC, and I presume that's accurate.
    The Chairman. It is. Without objection, staff is authorized 
to make technical changes to H.R. 5159. There being no further 
business, the committee stands adjourned. Thank you all.
    [Whereupon, at 5:30 p.m., the committee was adjourned.]

</pre></body></html>
